2311 Douglas Street AK

. E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B Es a contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-726

MALLORY JONES and TROY A. MOSES,
Petitioners,
vs.

RAMONE LAMKIN, individually and in his official
capacity as Marshal of the Civil and Magistrate Court
of Richmond County, Georgia and AUGUSTA, GEORGIA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE BRIEF AND BRIEF OF THE NATIONAL FRATERNAL ORDER OF POLICE, AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS MALLORY JONES AND TROY A.
MOSES in the above entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5606 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska . Le Qudraw- ,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant 39196

 
